               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Web-Based Application for the
     Discontinuance of Postal Service -
         Operated Retail Facilities

                       Audit Report




                                              July 7, 2011

Report Number EN-AR-11-006(R)
                                                                                    July 7, 2011

                                                          Web-Based Application for the
                                               Discontinuance of Postal Service-Operated
                                                                          Retail Facilities

                                                          Report Number EN-AR-11-006(R)



IMPACT ON:                                       and consolidations, and provide
The retail facility closing and                  management greater visibility over
consolidation process used by the U.S.           discontinuance activities enterprise-
Postal Service Headquarters, area,               wide. Although the CSDC program
district, and local offices. This process is     enhances the process through
high profile and sensitive with visibility       automation, improvements to the
from Congress, communities,                      discontinuance process are limited to
customers, employees, unions, and                guidance in current Postal Service
other stakeholders.                              policies. Management is currently
                                                 reviewing Handbook PO-101.
WHY THE OIG DID THE AUDIT:                       Accordingly, any modification to the
Postal Service policies prescribe the            CSDC program’s discontinuance
procedures for the retail discontinuance         process will be contingent on
process. The Postal Service designed             management updating its policies and
and implemented the web-based                    procedures.
Change Suspension Discontinuance
Center (CSDC) program’s closing and              WHAT THE OIG RECOMMENDED:
consolidating process within the                 Because the OIG has initiated a
guidelines of Handbook PO-101, Post              comprehensive review of the draft
Office Discontinuance Guide. Our                 Handbook PO-101, we are not making
objectives were to determine the CSDC            recommendations in this report
program’s compliance with applicable             regarding this issue.
federal law and Postal Service policies
and to assess the program’s                      WHAT MANAGEMENT SAID:
discontinuance process for Postal                The Postal Service informally reviewed
Service-operated retail facilities.              a draft of this report and had no
                                                 comments or concerns.
WHAT THE OIG FOUND:
The CSDC program uses a single set of
procedures for all Postal Service-
operated retail facilities, complies with
federal law and Postal Service policies,         Link to review the entire report
and offers improvements to the closing
and consolidation process. The CSDC
program could reduce current cycle time
by approximately 22 percent (up to
62 days), improve the standardization
and tracking of retail facility closures
July 7, 2011

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General for Mission Operations

SUBJECT:                   Audit Report – Web-Based Application for the
                           Discontinuance of Postal Service-Operated Retail Facilities
                           (Report Number EN-AR-11-006(R))

This report presents the results of our audit of the web-based application, the Change
Suspension Discontinuance Center program, used for the discontinuance of a Post
Office™, station, or branch (Project Number 11XG007EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    James J. Boldt
    Kevin V. Romero
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Compliance with Federal Law and Postal Service Policies ............................................. 2

CSDC Discontinuance Process....................................................................................... 3

   Cycle Time................................................................................................................... 3

   Standardization and Tracking ...................................................................................... 4

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: CSDC Program Access Level ................................................................... 10

Appendix C: Discontinuance Process Flow Matrix ........................................................ 11
Web-Based Application for the Discontinuance                                                 EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


Introduction

This report presents the results of our audit of the web-based application, the Change
Suspension Discontinuance Center (CSDC) program, used for the discontinuance of
Postal Service-operated retail facilities (Project Number 11G007EN000). The objectives
of this self-initiated1 audit were to determine the CSDC program’s compliance with
applicable federal law2 and U.S. Postal Service policies 3 and assess the program’s
discontinuance process for Postal Service-operated retail facilities. This audit addresses
strategic, operational, and financial risks. This is the second in a series of retail
optimization reviews. See Appendix A for additional information about this audit.

With declining mail volume, changing consumer needs, and nearly 100,000 locations
offering access to postal products and services, the Postal Service is renewing its
efforts to optimize its retail facility network. The Postal Service recognizes a need to
improve the administration and management of the discontinuance process.
Accordingly, management designed and implemented a new web-based program in
2010. One component of the CSDC program contains the closing and consolidation
process for Postal Service-operated retail facilities. Management built the
discontinuance process in the CSDC program to follow procedures and guidelines
prescribed in Handbook PO-101. In October 2010, the Postal Service began training
field offices, and it rolled out the CSDC program in December 2010.

Conclusion

The discontinuance process in the CSDC program is a web-based application that
complies with federal law and Postal Service policies and improves the Post Office™
(PO) closing and consolidation process. Specifically, the CSDC program could reduce
current cycle time by approximately 22 percent (up to 62 days), improve the
standardization and tracking of retail facility closures and consolidations, and provide
management greater visibility over discontinuance activities enterprise-wide. Although
the CSDC program enhances the process through automation, improvements to the
closing and consolidating process are limited to guidance in current Postal Service
policies. Management is currently reviewing Handbook PO-101. Accordingly, any
modification to the CSDC program’s closing and consolidating process will be
contingent on the Postal Service updating its policies and procedures. The U.S. Postal
Service Office of Inspector General (OIG) has initiated a comprehensive review of the
draft Handbook PO-101, which will examine all components of the discontinuance
process. Therefore, we are not making recommendations in this report regarding this
issue.

The Postal Service informally reviewed a draft of this report and had no comments or
concerns.

1
  On February 11, 2011, we received a congressional request after we initiated the review.
2
  39 U.S.C. §§ 101(b) and 404(d).
3
  Handbook PO-101, Post Office Discontinuance Guide, August 2004.
                                                        1
Web-Based Application for the Discontinuance                                                         EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


Compliance with Federal Law and Postal Service Policies

The CSDC program’s discontinuance process follows applicable federal law and Postal
Service policies. By law, the Postal Service cannot close small POs solely for operating
at a deficit. 4 The Postal Service is also required to:

   Provide public notice and opportunity to comment on its intention to close or
    consolidate5 a PO.

   Consider the effect on the community and employees, economic savings, and any
    other factors the Postal Service determines necessary.

   Provide effective and regular postal service.

   Make final determination available to the public.

   Provide the public with adequate time to file any appeals before the Postal
    Regulatory Commission (PRC).

Postal Service policies prescribe the procedures for the retail discontinuance process.
The Postal Service designed and implemented the CSDC program’s closing and
consolidating process within the guidelines of Handbook PO-101. The CSDC program
uses a single set of procedures for all discontinuance studies initiated beginning fiscal
year (FY) 2010 for all Postal Service-operated facilities (see Table 1 for compliance
analysis).




4
 39 U.S.C. § 101(b).
5
 In March 2011, the Postal Service published proposed rules to amend postal regulations to the retail facility closing
and consolidation process. The Postal Service interprets ‘consolidate’ as used in 39 U.S.C. § 404(d) to exclude the
consolidation of an independent PO to a subordinate Postal Service-operated retail facility.


                                                           2
 Web-Based Application for the Discontinuance                                              EN-AR-11-006(R)
  of Postal Service-Operated Retail Facilities



               Table 1: Retail Discontinuance Process Compliance Analysis

                 Title 39
           §101(b) and §404(d)                       Handbook PO-101                   CSDC Program

Cannot close small POs solely for                 Discontinuance Study –          Standardized all
operating at a deficit.                           gather community input          milestones, letters,
                                                  and evaluate and                forms tasks, and
Provide adequate public notice and                analyze information on          approvals in a web-
opportunity to comment.                           community, employees,           based environment to
                                                  alternative services, and       address each
Consider the effects on the community             office workload.                component of the
and employees, economic savings,                                                  discontinuance
and any other factors.                            Post discontinuance             process as outlined in
                                                  proposal.                       postal policies.
Provide effective and regular postal
services.
                                                  HQ review and final
                                                  determination.
Make final determination and provide
adequate time for public appeals.                   Final determination posting and appeal period.

No action to close or consolidate an
office until 60 days after final                                  Office closeout period.
determination is posted.
 Source: U.S. Code and Postal Service.

 CSDC Discontinuance Process

 The CSDC program’s discontinuance process could reduce cycle time by approximately
 22 percent (up to 62 days) and standardize the process for uniformity and
 completeness. The program also provides management with greater visibility over
 discontinuance activities through real-time tracking capabilities. See Appendix B for the
 CSDC program access level.

 Cycle Time

 Before implementation of the CSDC program, the Postal Service estimated the
 discontinuance process took approximately 280 days to complete. With the CSDC
 program, the Postal Service could complete the discontinuance process in
 approximately 218 days, a potential reduction in cycle time of 62 days (see Table 2 for
 cycle time reduction analysis). About 44 percent (27 of 62 days) of potential cycle time
 reduction occurs during the study phase through automation. The CSDC program
 imports data from various Postal Service systems 6 and prepopulates documents with

 6
  Address Management System, Facilities Management System, and Web Box Activity Tracking System, Accounting
 Data Mart, Retail Data Mart, Customer Service Variance and Small Office Variance.


                                                     3
Web-Based Application for the Discontinuance                                                           EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


applicable information about the retail facility under a discontinuance study. The
headquarters (HQ) review and final determination phase could also reduce the cycle
time by about 29 percent (18 of 62 days). Finally, the decision posting, appeal, and
office closeout phase could further reduce the cycle time by about 16 percent (10 of 62
days).

In March 2011, the Postal Service proposed new rules to improve the Postal Service-
operated retail facility discontinuance process. The proposed rules could further
streamline the closing and consolidation process by another 76 days, resulting in an
estimate of 142 days to complete the discontinuance process. Management had not yet
implemented the new timeline when we completed our audit work in July 2011.

Although estimated milestones are helpful and a good benchmark of progress, the
ability for the Postal Service to achieve any cycle reduction time is predicated on
individual tasks or approvals being completed on time. The CSDC program captures
real-time estimated and actual milestones for progress of completion. Our review of the
May 24, 2011, CSDC program discontinuance tracking report found 13 proposals did
not receive district manager review and 19 proposals did not receive HQ review by their
estimated dates.

                                 Table 2: Cycle Time Reduction Analysis

                                                                          Estimated Days to Complete

                                                                                                        Potential
                                                                                                          Cycle
                                                                     Pre-CSDC            CSDC           Reduction
                Discontinuance Process                                Program           Program           Days
      Authorization to study                                             10                 3               7
      Discontinuance study7 8                                           150               123              27
      HQ review and final determination                                  30                12              18
      Final determination posting, customer                              90                80              10
      appeal, and office closeout period10
      Total                                                               280              218               62
     Source: FY 2010 Lean Sigma Project Summary and CSDC Program Tracking.

Standardization and Tracking

The CSDC program is a web-based application that enables Postal Service employees
to perform required discontinuance steps by following the process flow matrix that is
part of Handbook PO-101 guidelines. The process flow generates standard tasks,
letters, forms, and notifications to ensure uniformity and completeness. In addition, the
process flow sends approval requests via e-mail to designated management and
prevents certain steps from progressing until the appropriate approvals are complete.

7
    Research, investigation, public notification and input, evaluate community, employee, and facility information.
8
    Time frame driven by federal law.


                                                             4
Web-Based Application for the Discontinuance                                                           EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


The CSDC program also issues system-generated alerts when an approval is required,
review is complete, and a discontinuance study becomes stagnant. See Appendix C for
the discontinuance process flow matrix.

PO discontinuance coordinators (PODCs) are responsible for compiling, documenting,
and completing all information required in the CSDC program’s discontinuance process.
A request to initiate a discontinuance study from the manager, PO Operations (MPOO),
to the district manager commences the discontinuance process. From the approval to
study through final determination, the discontinuance process may include up to 51
steps. 9 The discontinuance process populates estimated milestones for specific tasks
and approvals within the process. Users and management can view real-time estimated
and actual milestones for progress of completion, with the ability to drill down to the unit
level. The CSDC program also tracks the total number of Postal Service-operated retail
facilities and total number of facilities under a discontinuance study at the national, area,
and district levels. In addition, the CSDC program tracks each Postal Service-operated
retail facility’s operational data such as revenue, operating expenses, PO boxes,
delivery routes, office level, and staffing. On May 24, 2011, the CSDC program’s
discontinuance tracking reported there were:

      1,367 facilities initiated for discontinuance studies.

      190 facilities removed from consideration because postmaster vacancies were
       approved to be filled.

      97 facilities awaiting approval to begin discontinuance studies.

      1,080 facilities approved for discontinuance study.

      41 of 1,080 facilities were recommended for discontinuance with proposals
       submitted to HQ for review and final determination.

As part of our review, we tested the discontinuance process and found the CSDC
program:

      Establishes controls to ensure PODCs complete all documents for each step before
       submitting for management approval.

      Notifies appropriate district managers and PODCs of stagnant discontinuance
       studies.

      Pulls data from various Postal Service data sources annually and prepopulates the
       data into applicable letters and forms.
      Allows approving officials to view information, request further information, and make
       recommendations and approvals within the CSDC web-based application.

9
    If the final determination is appealed to the PRC, additional steps and up to 120 days will be added to the process.


                                                             5
Web-Based Application for the Discontinuance                            EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities



The CSDC program’s closing and consolidation process has resulted in significant
improvements through automation. However, improvements to the closing and
consolidating process are limited to guidance in current Postal Service policies.
Management is currently reviewing Handbook PO-101. Accordingly, any modification to
the CSDC program’s closing and consolidating process will be contingent on the Postal
Service updating its policies and procedures. Because the OIG has initiated a
comprehensive review of the draft Handbook PO-101, we are not making
recommendations in this report regarding this issue.




                                                6
Web-Based Application for the Discontinuance                                                      EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


                                 Appendix A: Additional Information

Background

The discontinuance process is high profile and sensitive with visibility from Congress,
communities, customers, employees, unions, and other stakeholders. Before the CSDC
program, the Postal Service used other automated programs to process and track
discontinuance activities. However, the discontinuance data in these programs was not
accurate, reliable, and useful. For example, the Postal Service reported significant
deficiencies in the quality of data in the PO Discontinuance Tracking System (PODTS).
Consequently, in 2009, the Postal Service began to transition from the PODTS to the
PO Discontinuance and Emergency Suspension System (PODESS). However, as
reported in our August 2010 audit, the Postal Service continued to have inaccurate
discontinuance data in the PODESS. 10

Faced with declining mail volume and rapidly changing consumer needs, the Postal
Service recognizes a need to improve the administration and management of the
discontinuance process with a robust, user-friendly automated system. Accordingly,
management designed and implemented the new web-based CSDC program in 2010.
One component of the CSDC program contains the closing and consolidation process
for Postal Service-operated retail facilities. The Postal Service designed the CSDC
program’s discontinuance process to adhere to Postal Service policies, reduce cycle
time, and improve process.

Objectives, Scope, and Methodology

Our objectives were to determine the CSDC program’s compliance with applicable
federal law and Postal Service policies and assess the program’s discontinuance
process for Postal Service-operated retail facilities. To accomplish this review, we:

    Reviewed Government Accountability Office (GAO) reports related to retail network
     optimizations.

    Reviewed PRC documents related to retail facility closures and consolidations.

    Tested the discontinuance process for selected sites in the CSDC program.

    Interviewed Postal Service officials and reviewed applicable guidelines, including
     federal law, Postal Service policies, and CSDC program trainings.

We conducted this performance audit from February through July 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate

10
    The OIG reported in August 2010 that HQ and field personnel do not use the PODESS. Instead, they track, report,
file, and maintain discontinuance activities manually.


                                                         7
Web-Based Application for the Discontinuance                               EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on June 20, 2011, and included their
comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems. We did not test the validity of controls over these systems;
however, we verified the accuracy of the data by confirming our analysis and results
with Postal Service managers and other data sources.




                                                8
     Web-Based Application for the Discontinuance                                             EN-AR-11-006(R)
      of Postal Service-Operated Retail Facilities



     Prior Audit Coverage

                           Report             Final Report
  Report Title                                                                  Report Results
                           Number                 Date
Stations and            EN-AR-10-005         August 17, 2010    The Postal Service could have enhanced
Branches                                                        planning and management of the initiative by
Optimization and                                                improving communication and coordination,
Consolidation                                                   developing accurate and reliable data on its
Initiative                                                      facilities, and raising stakeholders’ confidence
                                                                that it will make decisions in a transparent,
                                                                equitable, and fact-based manner.
Analyzing the          RARC-WP-10-004         June 14, 2010     The Postal Service’s current retail facility planning
Postal Service’s                                                appears to be a bottom-up process. An approach
Retail Network                                                  combining top-down economic modeling with
Using an Objective                                              adequate bottom-up local review is well suited to
Modeling Approach                                               supporting the consolidation of existing facilities.
                                                                By adopting a thorough, transparent, and
                                                                objective approach to retail modernization, the
                                                                Postal Service can respond to stakeholder
                                                                concerns and optimize its retail network.
U.S. Postal Service      GAO-09-958T          August 6, 2009     To achieve financial viability, the Postal Service
- Restructuring                                                  must align its costs with revenue, generate
Urgently Needed to                                               sufficient earnings to finance capital investment,
Achieve Financial                                                and manage its debt. Key restructuring actions
Viability                                                        the Postal Service could take include reducing
                                                                 compensation and benefit costs, consolidating
                                                                 retail and processing networks and field
                                                                 structure, and generating revenue through new
                                                                 or enhanced products.
U.S Postal Service -     GAO-09-790T           July 30, 2009    Although the Postal Service has begun efforts to
Broad Restructuring                                             realign and consolidate some mail processing,
Needed to Address                                               retail, and delivery operations, much more is
Deteriorating                                                   urgently needed. GAO recognizes that the Postal
Finances                                                        Service would face formidable resistance to
                                                                restructuring with many facility closures and
                                                                consolidations because of concerns that these
                                                                actions would affect service, employees, and
                                                                communities.
                         GAO-09-674T           May 20, 2009     The Postal Service can streamline its retail
U.S. Postal Service
                                                                network by closing unnecessary facilities and
- Network
                                                                promoting lower-cost alternatives such as
Rightsizing Needed
                                                                purchasing stamps by mail, telephone, and the
to Help Keep USPS
                                                                Internet, as well as at drug stores and
Financially Viable
                                                                supermarkets.
U.S. Postal Service      GAO-09-332T         January 29, 2009    The Postal Service needs to close unnecessary
- Deteriorating                                                  retail facilities and, by reducing the number of
Postal Finances                                                  facilities, lower the cost of maintaining its network
Require Aggressive                                               of facilities. The network of retail facilities has
Actions to Reduce                                                remained the same despite population shifts and
Costs                                                            changes in mailing behavior.




                                                        9
Web-Based Application for the Discontinuance                                  EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


                         Appendix B: CSDC Program Access Level

The CSDC program has five access levels that permit users to view work, track
processes, make edits, review documents, and determine critical discontinuance
decisions. The PODC grants access levels based on the individual’s role as defined in
the CSDC program.

   View Only - allows access to the tracking of sites that are currently working through
    the delivery unit optimization (DUO) or discontinuance process.

   Senior support staff - allows access to the tracking of sites that are currently working
    through the DUO or discontinuance process (needed for possible future
    enhancements).

   MPOO - allows access within the discontinuance process for decisions to be made
    on whether to continue a review once documentation is reviewed.

   District manager - allows access within the discontinuance process for critical
    decisions to be made on whether to continue a review and post the proposal notice
    once documentation is reviewed.

   Discontinuance coordinator - allows access within the entire site to make edits on
    any of the screens, grant access levels, and assign MPOOs and district managers.

As of May 3, 2011, 2,359 users had access to the CSDC program. Chart 1 identifies the
number and percentage of users per access level.




                                         Source: CSDC Program




                                                 10
Web-Based Application for the Discontinuance                                                         EN-AR-11-006(R)
 of Postal Service-Operated Retail Facilities


                     Appendix C: Discontinuance Process Flow Matrix



              Manager, Post                                       Post Office
                                     District Manager                                   Headquarters
             Office Operations                                  Discontinuance
               Approval Authority     Approval Authority         Coordinator            Approval Authority


                  Initiate the
                Discontinuance
                   Process.
                                                                     Conduct
                                                                  Investigation,
                   Request
                                                                    Gather and
               Authorization for
                                     Approval Decision.         Analyze Customer
               Discontinuance
                                                                Input, and Report
                    Study.
                                                                to Manager, Post
                                                                Office Operations.


             Decision to Continue
                 with Study.
                                                                 Prepare and Post
                                                                   Proposal for
                                                                    Community
                                                                Comments. Analyze
                                                                  Comments and
                                                                Report to Manager,
                                                                    Post Office
                                                                    Operations.



             Decision to Continue
             with Study. Submit to
               District Manager.




                                     Approval Decision.




                                                                                         Headquarters
                                                                                       Review and Closure
                                                                                         Determination.




                                                                  Prepare & Post
                                                                Final Determination.



        Source: CSDC Program.




                                                           11
